U.S. Department of
                                                  Memorandum
Transportation
Office of the Secretary
of Transportation
Office of Inspector General




INFORMATION: Audit Announcement-                                        May 10,2007
Use of Cost-Plus-Award-Fee Contracts Within DOT
Project No. 07F3011F000

Mark H.                                                      Reply to   JA-20
                                                             Attn of:
                                              w
  for Financial Management Audits

Senior Procurement Executive

The Office of Inspector General plans to conduct an audit of the use of cost-plus-award-
fee contracts. Award fees are included in Government contracts as an incentive to
motivate contractors to place particular emphases on certain areas within the contract to
ensure attainment of program goals and objectives. A cost-plus-award-fee contract is
appropriate to use when it is difficult to measure key elements of performance.
Therefore, administration of award-fee contracts involve substantially more effort over
the life of a contract than other types of contracts.

Under an award-fee contract, the Government and contractor negotiate a pool of money
in advance of signing an award-fee contract and the Government periodically assesses a
contractor's work to determine how much of the award-fee pool will be earned based on
contractor performance. As of December 3 1, 2006, the Department had 44 cost-plus-
award-fee contracts that had a potential value of about $3.5 billion.

The objective of this audit is to determine whether cost-plus-award-fee contracts were
effectively designed and administered in the best interest of the Government.
Specifically, we will determine whether:

           award-fee plans established adequate criteria for evaluating contractor
           performance and

           the amount of award fees paid to contractors was adequately supported.
The audit will be conducted at selected Operating Administrations within the
Department. We will contact your audit liaison to schedule an entrance conference. If
you have any questions or require additional information concerning this audit, please
call me at (202) 366-2001 or Terrence Letko, Program Director, at (202) 366-9917.



cc:   Acting Assistant Secretary for Administration
      Assistant Secretary for Budget and ProgramsIChief
       Financial Officer
      Procurement Council Members
      Martin Gertel, M- 1
